HHS/OIG-Audit--"Follow-up Audit of Accumulated Surplus by the Department
of General Services, State of California, (A-09-93-00039)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Audit of Accumulated Surplus by the Department of General
Services, State of California," (A-09-93-00039)
August 15, 1994
Complete Text of Report is available in PDF format
(1.76 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Internal service funds are operated to provide goods and services on a cost
reimbursable basis to agencies within a State. Such funds are required to operate
on a break-even basis by charging users for allowable costs as established under
Office of Management and Budget Circular A-87. A prior audit resulted in the
State returning $10.3 million to the Federal Government for a surplus accumulated
in an internal service fund. Our current audit, covering the period July 1984
through June 1991, showed the State owed the Federal Government an estimated
$12.2 million for accumulated surpluses in internal service funds. We recommended
that the State refund this amount and adjust billing rates to eliminate surpluses
or deficits. Regional officials of the Division of Cost Allocation generally
agreed with our findings and recommendations.